E

2311 Douglas Street

E-Mail Address:

Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No. 19-- - - LMP SERVICES, INC.,
Petitioner,
v.
CITY OF CHICAGO,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of September, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:
SEE ATTACHED

To be flied for:
ROBERT P. FROMMER*
JOSHUAA. WINDHAM
INSTITUTE FOR JUSTICE
901 North Glebe Road
Suite 900
Arlington, Virginia 22203
(703) 682-9320
rfrommer@ij.org
jwindham@ij.org
*Counsel of Record

ROBERT W. GALL
INSTITUTE FOR JUSTICE
816 Congress Avenue
Suite 960
Austin, Texas 78701
(512) 480-5936
bgall@ij.org
Counsel for Petitioner

Subscribed and sworn to before me this 20th day of September, 2019.
lam duly authorized under the laws of the State ofNebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38585

Suzanne M. Loose
Senior Counsel
Myriam Zreczny Kasper
Chief Assistant Corporation Counsel
30 North LaSalle Street, Suite 800
Chicago, IL 60602
(312) 744-8519
suzanne.loose@cityofchicago.org
appeals@cityofchicago.org

